                              Office of the Inspector General

September 29, 1998

Kenneth S. Apfel

Commissioner of Social Security



Acting Inspector General



Payment Accuracy Task Force: SSI Earned Income



The attached final report presents the results of the most recent Payment Accuracy

Task Force initiative. Historically, earned income issues have accounted for the largest

dollar amount of payment errors in the Supplemental Security Income (SSI) program. 

Therefore, the Payment Accuracy Steering Committee chartered an issue team to study

this subject. The objective of the SSI Earned Income Issue Team was to identify

previous SSI earned income-related initiatives, define problems and weaknesses in the

process, formulate a cost-benefit analysis, and propose recommendations to improve

payment accuracy.


The SSI Earned Income Issue Team developed 12 recommendations to address

earned income errors. These recommendations address errors that are caused by

nonreporting and field offices. Many of the recommendations complement ideas that

will be contained in the Social Security Administration’s (SSA) SSI Report. As a result,

we believe you will find this report particularly useful, and you may want to consider this

effort as one more initiative SSA is taking to remove SSI from the General Accounting

Office’s High-Risk list.


Last year, at an Executive Staff Meeting, we briefed participants on the results of our

first initiative. We would be happy to brief them again on this initiative if you believe it

would be helpful. If you wish to discuss the final report or arrange for a briefing, please

call me or have your staff contact Pamela J. Gardiner, Assistant Inspector General for

Audit, at (410) 965-9700.





                                                  James G. Huse, Jr.

Attachment
    PAYMENT ACCURACY
       TASK FORCE




    SSI EARNED INCOME
        ISSUE TEAM


September 1998   A-13-98-51010
                        TABLE OF CONTENTS

INTRODUCTION .............................................................................................................1

     The Payment Accuracy Initiative ...............................................................................1

     Issue Team’s Mission Statement...............................................................................1

     Scope and Methodology............................................................................................2


EARNED INCOME OVERVIEW.......................................................................................3


FINDINGS AND RECOMMENDATIONS .........................................................................6

     ERRORS CAUSED BY NONREPORTING ...............................................................6

     •	 Perform a Study to Determine if the State Wage Match Could Be

          Expanded to Confirm Earned Income Information ...............................................6

     • Reduce the Maximum Redetermination Period to 2 Years ..................................9

     •	 Evaluate the Use and Enforcement of Penalties and Determine Whether

          the Penalty Assessment Process Should Be Simplified ....................................10

     •	 Include Procedures in the Teleservice Center Operating Guide for

          Recording SSI Work Reports for Aged Individuals and Deemors......................11

     •	 Issue a SSI Spotlight on Wage and Self-Employment Reporting

          Requirements.....................................................................................................12

     •	 Print Wage Estimates and Detailed Reporting Instructions on the Claims

          Receipt Form .....................................................................................................14

     • Develop Public Information to Address Concurrent Entitlement ........................15

     ERRORS CAUSED BY FOs ...................................................................................15

     •	 Revise POMS to Clarify What Is Considered to Be Acceptable Evidence

          for Terminating Wages ......................................................................................16

     • Revise POMS to Prompt Development of Cafeteria Plans ................................17

     •	 Revise the Modernized Supplemental Security Income Claims System to

          Assist CRs in Developing Blind and Impairment-Related Work Expenses........18

     •	 Provide Training to FO Personnel on Cafeteria Plans and Blind and

          Impairment-Related Work Expenses .................................................................19

     •	 Revise MSSICS to Capture Self-Employment Income for the Current

          Taxable Year......................................................................................................20


CONCLUSION...............................................................................................................22


APPENDICES
APPENDIX A - Steering Committee Members
APPENDIX B - Issue Team Members
                        INTRODUCTION

                      The Payment Accuracy Initiative
The Payment Accuracy Task Force was created through the cooperative efforts of the
Social Security Administration (SSA) and SSA’s Office of the Inspector General (OIG)
to improve the accuracy of payments for SSA’s Old-Age, Survivors and Disability
Insurance and Supplemental Security Income (SSI) programs. To guide and support
this initiative, an Associate Commissioner-level Steering Committee was formed. A
listing of the Steering Committee members is contained in Appendix A.

The Steering Committee used the annual Index of Dollar Accuracy (IDA) reports
produced by the Office of Quality Assurance and Performance Assessment (OQA) to
identify and prioritize major categories of payment errors. These reports provide the
Agency with a national measure of accuracy for the SSI program on initial awards and
field office (FO) processed redeterminations. Historically, earned income issues have
accounted for the largest dollar amount of payment errors in the SSI program.
Therefore, the Steering Committee selected SSI earned income payment errors as the
first SSI issue to be addressed and established an issue team.

The SSI Earned Income Issue Team, chartered by the Steering Committee, was
comprised of six employees from various SSA components, as shown in Appendix B.
The team was directed to: identify previous SSI earned income-related initiatives,
define problems and weaknesses in the process, formulate a cost-benefit analysis, and
propose recommendations to improve payment accuracy.

                      Issue Team’s Mission Statement
The team developed the following mission statement to incorporate the Steering
Committee directives and define the team’s purpose.

       The SSI Earned Income Issue Team Has Been Chartered by the
       Payment Accuracy Steering Committee for a Period of 119 Days.
       As Part of this Effort, the Team Will Review Prior and Current
       Studies/Proposals and SSI Earned Income Error Cases to Identify
       Specific Error Causes. Recommendations to Address These
       Errors Will Be Developed and Presented in a Written Report to the
       Steering Committee.




                                         Page 1
                                 Scope and Methodology

The scope of our initiative focused on SSI earned income errors that occurred during
FO processing of initial claims and posteligibility actions.

In order to fully understand the nature of SSI earned income errors and to develop
recommendations to address these errors, we:

•	 Reviewed prior OIG, SSA, and General Accounting Office reports and
   recommendations related to SSI earned income.

•	 Analyzed OQA’s IDA and Stewardship reports for Fiscal Years (FY) 1992 through
   1996 and other OQA recommendations related to SSI earned income.

•	 Analyzed available OQA data1 for SSI earned income errors reported in the
   FY 1996 IDA and Stewardship reports.

•	 Identified potential problems contributing to earned income errors and developed
   recommendations for changes to existing systems, policies, and procedures.

•	 Interviewed more than 90 claims representatives (CRs), office supervisors, and FO
   managers in the Philadelphia and Atlanta regions to obtain feedback on the causes
   of SSI earned income payment errors. We also asked FO personnel to provide
   input on the Team’s recommendations or suggest other ideas for reducing earned
   income and workload processing errors.

We discussed the identified problems and our proposed recommendations with
appropriate systems and policy staff to evaluate the merit and feasibility of the
recommendations.

We have provided the projected error dollars for each major category, where
appropriate, in the body of our report. Because IDA cases contained several different
earned income errors, we were unable to provide precise dollar projections for our
recommendations, particularly for errors caused by FOs. It is also important to
understand that the dollar projections contained in our report are based on the FY 1996
IDA study. However, we also reviewed Stewardship data and confirmed that similar
errors exist in both studies. Our recommendations, therefore, can impact both IDA and
Stewardship accuracy rates.



1
  We reviewed 404 IDA quality review cases, in addition to 289 Stewardship cases, that contained earned
income errors in FY 1996, which was the most current OQA data available. The FY 1997 IDA and
Stewardship reviews were not yet completed as of the date of this report.


                                                   Page 2
           EARNED INCOME OVERVIEW

The SSI program provides benefits to low-income aged, blind, and disabled individuals.
Because the program is based on need, SSA determines whether individuals are
eligible and, once eligible, the amount of benefits an individual will receive. Earned
income is one major factor used to determine whether individuals are eligible. If
eligible, the amount of earned income is considered when determining the amount of
the monthly benefit. SSI clients are required to “self-report” to SSA any income that
they or a deemor2 receives when they apply for SSI. To ensure that SSA is aware of
fluctuations or changes in income, clients are also required to self-report any changes
                                   th
in their monthly income by the 10 day of the month following the month in which the
change occurred.

Causes of Earned Income Errors. The “self-reporting” aspect of the SSI program
is the primary cause of SSI overpayments and underpayments. The following provides
an overview of the causes of earned income errors for the 1996 IDA review.

                                                        % of Total              Total
                     Cause Category                    Error Dollars           Dollars
                 Nonreporting                             65.68%              $ 162.04 M
                 FO                                        25.61%                 63.17 M
                 Administrative Tolerance                   8.71%                 21.50 M
                          Total Error Dollars                                 $ 246.71 M

The total error dollars also represent overpayments and underpayments as shown
below:

                                           Total Error         Overpayment          Underpayment
         Cause Category                     Dollars              Dollars               Dollars
     Nonreporting
                          $162.04 M*            $106.42 M              $55.63 M
     FO
                                         63.17 M               31.42 M               31.75 M
     Administrative Tolerance
                   21.50 M               11.16 M               10.34 M
              Total Error Dollars            $246.71 M             $149.00 M               $97.71 M*
    *Totals vary due to rounding

In order to understand how the self-reporting aspect of the program contributes to the

2
  Deemors are an individual’s parent, ineligible spouse, or sponsors (i.e., individuals who agree to support
an alien as a condition of the alien’s admission to the United States).


                                                     Page 3
large number of inaccurate payments, it is important to understand the earned income
development process and how monthly SSI benefits are currently calculated.

Earned Income Claims and Development Process. During an initial claim for
benefits, CRs ask applicants about their work or self-employment activity. CRs also
inquire about work or self-employment activity of the applicants’ deemors. If earned
income is present for the applicant or deemors, the CR is required to determine the
amount of wages and self-employment income by obtaining the following evidence:
1) paystubs, 2) employer reports, 3) tax returns, and/or 4) signed statements from the
claimant.

This information is used by the CR to enter earned income estimates for 14 future
months on the Supplemental Security Record (SSR) and, where applicable, to enter
actual earned income received in prior months. All wage and self-employment
estimates on the SSR must be verified by the CR using acceptable evidence, such as
paystubs, employer reports, or tax returns. Once evidence is obtained and “actual”
earned income amounts are entered on the SSR, the earned income information is
considered “verified.” Wages can be verified monthly, while self-employment can only
be verified on an annual basis using tax return information.

Each month, SSA calculates benefits based on the earned income data on the SSR. If
the estimates and verified income amounts are accurate, a correct benefit payment will
result.3 However, if these amounts are incorrect, an underpayment or overpayment will
result.

During the posteligibility process, earned income is verified and/or estimates are
revised when CRs conduct (1) reviews of income or (2) redeterminations.

•	 Reviews of Income are FO actions initiated as a result of a report of an earned
   income change or a diary or alert resulting from a SSA computer data match.
   Reviews of income are also initiated when SSA receives paystubs or other evidence
   to verify actual earned income amounts.

•	 Redeterminations are nonmedical eligibility reviews4 performed on selected SSI
   cases each year that evaluate all aspects of eligibility, including earned income.
   When developing earned income, SSI recipients are asked to provide evidence to
   verify earned income estimates previously provided and entered on the SSR. They
   are also asked about other earned income that may not be reflected on the
   individual’s SSR.


3
  For the purposes of this report, we are assuming that all other eligibility factors on the record are known
and accurate.
4
  Redeterminations can be conducted in-person, by telephone, or by mail. Both CRs in local FOs and staff
at the Wilkes-Barre Data Operations Center participate in the redetermination process.


                                                     Page 4
The following flowchart provides an overview of the earned income process:



                                                        Supplement al
      Initial Claim                       CR Enters       Security
                                 CR
                                           Verified        Record
                             Develops
                                          Income &
                               Earned
                                            Future
                              Income
                                          Estimates
                            Information
                                           on SSR
                                                           Syst em                  Income
                                                                                                          Accurate
      Posteligibility                                 Calculat es Benef it         Amount s
                                                                                                          Payment
                                                      Each Month Using       (Verified/Estimated)   Yes
    (Review of Income &                                                                                    Issued
                                                       Income Amounts              Accurate
      Redet erminat ions)
                                                           on SSR                  on SSR?




                                                                                     No


                                                                              Overpayment or
                                                                              Underpayment
                                                                                  Issued




To calculate monthly SSI benefits, SSA uses a method known as retrospective monthly
accounting (RMA). RMA allows SSA to use reported earned income amounts from the
second month before the month for which payment is being computed (i.e., the
                                                              5
August 1998 payment is calculated based on June 1998 income). The key factor is
that the earned income amount must be “known.”

Unless the individual or their representative reports wage information each month to
SSA, estimates that are on the SSR will continue to be used to calculate the monthly
benefit. When an estimate is used, no matter how accurate the attempted projection
may be, an overpayment or underpayment will almost invariably result.

Considering these aspects of the process, the team focused on ways to improve the
existing process and explored other methods to effectively reduce the overall dollar
amount of payment errors. Early in our review, we recognized that bringing the
estimate more closely in line with what the recipient or deemor actually earns will
effectively reduce the overall amount of dollar errors.




5
  The exception to the second month rule is that the first two benefit payments issued to a claimant after
becoming eligible are based on the earned income received in the first month of eligibility.


                                                        Page 5
FINDINGS AND RECOMMENDATIONS

The team developed 12 recommendations to address earned income errors. These
recommendations address errors that are caused by: 1) Nonreporting and 2) FOs.
The intent of our recommendations is both to improve SSI payment accuracy by closing
the gap between estimates and actual income and to reduce the total dollar impact of
SSI overpayments and underpayments. These recommendations also address ways to
improve CRs’ ability to process claims more accurately and efficiently.

                     ERRORS CAUSED BY NONREPORTING
Nonreporting has been identified as the major cause of earned income errors in the
annual IDA report since 1990. Of the $246.71 million in errors in FY 1996,
$162.04 million, or about 66 percent, were attributed to nonreporting. These errors
represented $106.42 million in overpayments and $55.63 million in underpayments.

We developed the following seven recommendations to address nonreporting. The
first four recommendations suggest ways SSA can: 1) modify its policies and related
processes, 2) detect unreported earned income earlier, and 3) encourage individuals to
make more timely reports of earned income. The remaining three recommendations
suggest improvements to information provided to the public that explain the program’s
reporting requirements.

♦	 Recommendation 1: Perform a Study to Determine if the State
   Wage Match Could Be Expanded to Confirm Earned Income
   Information

SSA currently matches State wage information with earned income amounts on the
SSR to identify unreported earned income that affects benefits. This match is
performed twice a year and matches wage data for 44 States. The process currently
generates an alert to a FO if State wages exceed SSR totals by a certain tolerance.6

In October 1998, SSA will begin a quarterly wage match using State data from the
newly established Office of Child Support Enforcement (OCSE) data base. The major
benefit of using this data base is that it will contain quarterly wage data from all States
and will provide more current information than the existing State wage match. SSA
plans to use OCSE data to determine whether OCSE’s wages exceed wages on the




6
  Tolerances are specified amounts (i.e., dollar amounts) established by SSA policy for the purposes of
processing certain types of workloads.


                                                    Page 6
SSR by more than the $250 tolerance. When differences are detected, SSA will
continue to issue alerts to FOs for development.

During our FO visits, we discussed SSA’s plans for using OCSE data with CRs. Many
believe that this data will improve SSA’s ability to identify unreported income and
incorrect earned income amounts on the SSR. However, concerns were raised about
the increased workload that may result from quarterly matches.

Currently, workloads such as claims processing, in-office interviews, and completing
redeterminations are considered priority workloads by FO managers. Little time is left
for CRs to pursue the lengthy development of wage alerts. We asked why these alerts
consume so much of their time. Most responded that it takes a considerable amount of
time to locate and contact recipients, especially when SSA is unaware that individuals
are working. CRs also said individuals do not always cooperate, and employers often
will not provide SSA with needed wage information. Without full cooperation, CRs
cannot make timely revisions to the SSR to adjust the monthly benefit.

In light of these concerns and in an effort to address nonreporting, we believe that this
new State wage match should be expanded to:

   •	 Encourage self-reporting by notifying individuals that wages on the OCSE data
      base differ from those in SSA’s records;

   •	 Revise wage estimates upwards, for individuals who fail to respond to notices of
      excess wages, to minimize the dollar amount of overpayments; and/or

   •	 Verify wage amounts, within certain tolerances, to eliminate unnecessary work
      for FOs.

To illustrate how the State wage match process could be modified to address situations
where SSA detects wages in excess of that on the SSR, we offer the following example:

      If the wage match detects wages in excess of the current $250 tolerance,
      then the Agency would do the following:

      a) Issue an automated notice to the SSI recipient that provides an
         explanation of: 1) any wage amounts in question and the source of the
         information, 2) the need for the individual to provide SSA with paystubs
         to verify the information within 10 days so that the proper benefit will be
         paid, 3) the due process rights of the individual to dispute the
         information, also within 10 days, and 4) specific actions that SSA will
         take if the individual does not respond.




                                            Page 7
      b) If the individual responds to the notice, CRs should follow current
         policy for verifying and entering wages on the SSR and, if appropriate,
         adjust wage estimates.

      c) If the individual does not respond to the notice, then the system should
         divide the OCSE quarterly wage amount by 3 and revise wage
         estimates on the SSR to adjust the monthly benefit and minimize SSI
         overpayment dollars.

A process similar to this example is already being used to record income received
through data matches with other Federal agencies, such as the Office of Personnel
Management and the Veterans Administration. This type of process initiates contact
with SSI recipients to encourage self-reporting of income information and shifts some of
the burden from FOs.

Also, if individuals do not respond to notices, this suggested process would enable
SSA to revise wage estimates to reduce overpayments. Our analysis of IDA cases
found that even when SSA detected excess income, a considerable amount of time
passed before the case could actually be reviewed, resulting in large overpayments.
Using the suggested process would minimize SSI overpayments and make the
redetermination process easier because records will be more up-to-date for individuals
who report.

SSA could also use the State wage match to notify individuals when wages are less
than wages shown on the SSR. This would help SSA minimize the dollar amount of
underpayments issued. It is likely that if SSA issued notices to individuals that they
might be underpaid, they would respond immediately to ensure that their monthly
benefit was accurate. Additionally, SSA should consider eliminating some verification
requirements, which would also result in reducing FO workloads. For example, if the
State wages equal or are within a certain tolerance of those shown on the SSR, the
wages could be considered to be “verified.” This would reduce the need for CRs to
verify wage information.

We recommend that SSA perform a study to determine if the State wage match can be
expanded to confirm earned income information in order to effectively reduce
overpayments and underpayments. Because OCSE data is based on quarterly wage
amounts and cannot be used to determine “monthly” eligibility under the current
system, we are not proposing that the State wage match be expanded immediately.
SSA should evaluate its payment and notice policies and procedures to determine how
this wage match could be used to encourage self-reporting. A pilot could then be
conducted to evaluate proposed procedures and tolerances once a study has been
completed.




                                          Page 8
♦	 Recommendation 2: Reduce the Maximum Redetermination Period
   to 2 Years

Redeterminations, or nonmedical eligibility reviews, are conducted on selected cases
each year to ensure that SSI recipients are eligible for and are receiving the correct SSI
payments. SSA uses a profiling system to score each case based on the likelihood of
that case containing a payment error. Cases that have a high score are sent to FOs for
personal contact redeterminations. Lower-scored redeterminations are generally
conducted by the Wilkes-Barre Data Operations Center (DOC) using a mail-out form,
with certain cases being referred to FOs for further development. Under this scoring
system, certain cases may be selected every year, while other cases can go as long as
6 years without a redetermination.

In 1994, the Commissioner of Social Security increased the maximum redetermination
period from 3 years to 6 years in an attempt to reduce FO workloads. However, most
CRs we interviewed felt that this change did not produce the desired results. They
believe that this change has probably resulted in more overpayments and
underpayments being issued, because longer periods of time elapse before certain
cases are redetermined. The general belief is that less frequent contact with
recipients, combined with the high incidence of nonreporting by SSI clients, actually
increases payment errors.

One of SSA’s primary sources for obtaining current information is through the
redetermination process. CRs told us that a 6-year lapse between redeterminations is
too long to expect recipients to maintain records and provide accurate information.
CRs also pointed out that a 6-year redetermination period conflicts with administrative
finality7 rules. Administrative finality rules prevent CRs from adjusting payments or
collecting overpayments as a result of events that occurred beyond the prior 2-year
period.8 When considering that CRs can only collect overpayments that occurred in the
last 2 years, the value of a 6-year redetermination period becomes even more
questionable.

We recommend that the maximum redetermination period be reduced to 2 years, not
only to comply with administrative finality rules, but to increase SSA’s ability to detect
unreported earned income and verify estimates more timely. This would also increase
SSA’s ability to collect overpayments that otherwise would be uncollectable or
“written-off” because of administrative finality.

This change would initially increase the number of mail-out redeterminations processed
by the Wilkes-Barre DOC, and ultimately, the number of redeterminations referred to


7
    Administrative finality specifies time limits for correcting information on the SSR.
8
    An exception to this rule is if fraud or similar fault is involved in causing the error.


                                                           Page 9
the FOs.9 However, case information would be more current, save CRs processing
time on future redeterminations, and help the Agency reduce the magnitude of
overpayments and underpayments.

♦	 Recommendation 3: Evaluate the Use and Enforcement of Penalties
   and Determine Whether the Penalty Assessment Process Should Be
   Simplified

The Social Security Act authorizes SSA to assess penalties when SSI recipients fail to
make timely reports of changes which affect a person’s eligibility or payment amount,
except in situations where the individual was without fault or had good cause10 for
failing to report. The time frame for reporting changes is within 10 calendar days after
the month in which the change occurs. SSA may assess a $25 penalty for the first
failure, a $50 penalty for the second failure, and a $100 penalty for each subsequent
failure to report.

We interviewed CRs to determine whether they had ever assessed penalties for
failures to report changes and whether they believed that penalties should be used to
encourage individuals to report. We found that 19 out of 88 CRs had assessed a
penalty in their career, but only 1 had assessed a penalty in the last 10 years. In
addition, almost every CR stated that while it is the Agency’s policy to assess penalties,
it is not encouraged because it is not the Agency’s philosophy.

CRs also indicated that in order to assess a penalty they must complete an extensive
development process which includes preparing manual notices and conducting
interviews with recipients. The interviews are required so CRs can determine whether
recipients were without fault or had good cause for not reporting. Recipients were often
without fault because their representative payees were responsible for reporting;
however, penalties cannot be assessed against representative payees for failure to
report. The penalty assessment process is costly, in time and effort, for CRs to perform
and ultimately takes time away from processing claims, redeterminations, and other
priority workloads.

We also asked CRs for their views on assessing penalties to gain compliance from SSI
recipients who repeatedly fail to report income changes. When asked whether
penalties “should” be used, approximately 53 percent said yes. One CR stated that the
“Agency has no teeth” and many recipients know this. Some recipients refuse to
comply and provide necessary information because they know that no adverse action
will result from their noncompliance. Instead, CRs will spend time trying to obtain

9
   OQA is currently performing a study of the DOC redetermination process. The results of this study may
provide additional insight into the effectiveness of the redetermination process and time frames.
10
   Good cause may be found to exist if the failure to report resulted from unfavorable circumstances or the
person’s confusion as to the law, or misleading action of SSA.


                                                   Page 10
needed information from third parties—information that is readily available to the
recipient. This adds to FO workloads and allows erroneous payments to continue until
the needed information can be obtained and annotated to SSA’s records.

Whether penalties should be used to encourage reporting becomes more a question of
philosophy. Because SSI is a needs-based program, assessing penalties can be
viewed as defeating the purpose of the program. On the other hand, there is no doubt
that cases do exist where recipients are “chronic abusers” of the system and repeatedly
and intentionally fail to report. Encouraging the CR to use the penalty provision–even
just once–might have the desired effect of “getting the message across” to recipients
that they are responsible for reporting changes in a timely manner to SSA.

We recommend that management reassess the Agency’s reluctance to impose
penalties and determine whether SSA should encourage the use of penalties to enforce
reporting requirements, particularly for chronic abusers. The Agency should also
determine how the penalty assessment process could be simplified and made less time
consuming for CRs.

♦	 Recommendation 4: Include Procedures in the Teleservice Center
   Operating Guide for Recording SSI Work Reports for Aged
   Individuals and Deemors

SSI recipients and representative payees are encouraged to use the 800 number to
report earned income changes. When an individual contacts SSA’s teleservice
centers (TSC), teleservice representatives (TSR) record the individual’s information
and provide it to the appropriate FO for processing.

FO personnel told us that leads they receive from the TSCs usually do not contain
enough information to actually make adjustments to an individual’s record and monthly
benefit payment. In order to adjust an individual’s payment, the CR needs about
16 items of specific information concerning the earned income change being reported.
For example, if individuals report that they started to work, CRs need to obtain such
information as the employer’s name, start date, hourly wage, weekly hours, and date
paid. When insufficient information is obtained by the TSR, CRs must contact the
individual again to obtain complete data on the information being reported. CRs also
said that it is often difficult to reach recipients who are working. As a result, erroneous
payments continue until the CR is able to reach the individual and obtain the necessary
information.

The TSC Operating Guide provides instructions for TSRs on how to handle different
types of calls to the 800 number. We reviewed the guide and found that the current
800 number procedures contain detailed instructions on taking work reports for
disabled recipients only. The guide also instructs TSRs to send a message to the local
FO when an aged recipient reports work, but it does not specify what information to


                                           Page 11
include in that message. There are no instructions in the guide that address how to
handle work reports for individuals who are deemors on SSI recipients’ records. If
TSRs were instructed to obtain better and more complete information for all individuals
who report earned income information to the 800 number, CRs could make timely
adjustments to benefits, prevent erroneous payments, and avoid additional contacts
with individuals.

We recommend that the TSC Operating Guide be revised to include detailed
instructions for recording work report information for aged SSI recipients and deemors.
These procedures should provide TSRs with instructions to obtain all the necessary
data at the time of the call to prevent CRs from having to contact individuals again for
additional information. Any changes made to this guide should be incorporated into
TSR training programs and TSC systems screens used to capture caller data.

♦	 Recommendation 5: Issue a SSI Spotlight11 on Wage and
   Self-Employment Reporting Requirements
To ensure that SSI recipients and representative payees are aware of and understand
reporting requirements, SSA needs to provide clear and concise reporting instructions.
 We reviewed reporting instructions contained in various SSA publications provided to
the public. Generally, we found that reporting instructions were broad, scattered
among various publications, and did not indicate the types of evidence that individuals
need to provide to SSA. We believe that improved reporting instructions will result in
increased compliance with reporting requirements.

Currently, when individuals apply for benefits, they receive several SSI publications,
including the claims receipt, that generally describe SSI reporting requirements. These
publications instruct individuals to tell SSA if their income “changes or stops.”

CRs indicated that most recipients understand that if they stop or start working they
need to report to SSA. However, sometimes it is not clear that this reporting
requirement applies to individuals other than the recipient (i.e., deemors). Another
difficulty is that individuals interpret the term “change” differently. The term “change”
can be interpreted to mean a promotion, bonus, overtime, change in hourly rate, start of
a second job, or even termination of employment. The understanding of “change”
varies from individual to individual. Individuals’ payments can go up or down, even if
their income or their deemors’ income varies by $1 from the estimated amount on the
record. If individuals clearly understand what earned income changes need to be
reported, it may encourage them to report to SSA in a more timely manner.
CRs indicated, and we concur, that there is currently no publication that clearly
explains who should report, what should be reported, and what information should be
11
   Spotlights are handouts that contain general program information to help SSA customers through the
process of applying for and receiving SSI benefits. They provide clear and concise information to the
public, and CRs often use these publications as tools for educating the public.


                                                  Page 12
retained and provided to SSA when individuals or deemors have earned income. CRs
also pointed out that paystubs, a vital document for wage verification, are not
mentioned in SSA literature as an item that must be retained and provided to SSA.

We recommend that an SSI Spotlight be issued to provide recipients with specific
reporting instructions. The recommended Spotlight should provide detailed instructions
on who must report, what should be reported, and what information must be kept and
provided to SSA. Figure 1 shows a suggested format for the Spotlight.

                                                 Figure 1




                     SSI SPOTLIGHT ON REPORTING REQUIREMENTS
                           FOR WAGES OR SELF-EMPLOYMENT

   WHO MUST REPORT?
   • Recipient
   • Representative Payee

   WHAT INFORMATION MUST BE REPORTED?
   • Monthly Gross Wages (including tips)
   • Wage/Self-Employment Increase Or Decrease
   • Changing Employers
   • Starting Or Stopping Work
   • Starting Or Stopping A Second or Third Job
   • Work Expenses Related To Disability Or Blindness
   • Royalties/Honoraria

   WHOSE INFORMATION MUST BE REPORTED?
   • Recipient
   • Spouse Of Recipient
   • Ineligible Child
   • Parents Of Child Recipient
   • Sponsor Of Alien
   • Spouse Of Sponsor Of Alien

   WHAT RECORDS MUST BE KEPT AND REVIEWED BY SSA?
   • Every Paystub, Including Paystubs For Overtime, Vacations, Or Bonuses
   • If Self-Employed, Completed Federal/State Income Tax Forms
   • Receipts For Expenses Related To Disability Or Blindness

      THIS INFORMATION IS GENERAL. TO FIND OUT MORE CONTACT SOCIAL SECURITY




                                                   Page 13
♦	 Recommendation 6: Print Wage Estimates and Detailed Reporting
   Instructions on the Claims Receipt Form

When individuals apply for SSI payments, they receive a claims receipt form that
primarily serves as evidence that they applied for benefits. The receipt also provides
information on reporting responsibilities and penalties that may be assessed if
individuals do not report changes to SSA. The reporting responsibilities, as discussed
on the receipt, are broad and cover a wide range of reportable events. The claims
receipt does not inform the individual that earned income, the individual’s or deemor’s,
is being used to calculate their benefit, nor does it instruct the individual on what types
of evidence are required to verify earned income.

Since wages can fluctuate from week to week, we believe that providing applicants with
the initial estimates used to calculate their monthly benefit could improve the recipient’s
ability to recognize that earned income is being used to calculate their monthly benefit.
 Also informing individuals in writing, at the time of the initial claim, that they and/or
their deemors are required to submit paystubs may help CRs obtain the necessary
documents in the future. The majority of CRs we interviewed agreed that providing this
information to the recipient should help to reinforce the reporting requirements and
alert recipients to the importance of maintaining and submitting paystubs for verifying
wages.

We recommend that the claims receipt be modified to provide individuals with the
estimated wages that SSA used to calculate benefits. We also recommend additional
language be added to the claims receipt to clearly indicate that SSA requires paystubs
to verify the estimates. Figure 2 provides a suggested format.

                                          Figure 2

     The following monthly wages will be used in determining your future SSI
     payments.

          Your Estimated Wages                   Deemors’ Estimated Wages
              08/98 - $200                             08/98 - $150
              09/98 - $250                             09/98 - $200
              10/98 - $200                             10/98 - $150


     You will be required to maintain and provide SSA with paystubs to verify
     these amounts and future months’ wages. The amount of your benefit
     may change if your wages vary from the estimates shown above;
     therefore, it is critical that you maintain paystubs to verify your wages.




                                            Page 14
Depending on the circumstances of each case, the wage amounts shown will vary. The
example shown in Figure 2 assumes that both the individual and the deemor have
earned income.

♦	 Recommendation 7: Develop Public Information to Address
   Concurrent Entitlement

Many individuals receive SSI in addition to Social Security benefits. These individuals
are considered to be concurrently entitled. The SSI and Social Security programs have
different income rules, as well as different reporting requirements. The SSI program
has more restrictive income reporting requirements since SSI eligibility is based on
need and, therefore, requires monthly reporting to evaluate monthly eligibility and
determine the benefit amount. However, the Social Security program generally
considers income on an annual basis to determine whether the annual earnings limit
has been exceeded. There are also different reporting requirements under each
program for disabled individuals who work.

When we reviewed the IDA cases, we often found recipient statements in the quality
review folders indicating individuals believed that the reporting requirements for SSI
were the same as those for Social Security benefits. FO personnel also mentioned that
recipients often confuse the reporting requirements of the two programs. For example,
many aged SSI recipients believe they can earn up to the annual earnings test limit of
$14,500 before having to report to SSA. SSI recipients earning that amount would be
ineligible for benefits and could incur large overpayments. Many CRs expressed the
need for some literature to specifically address reporting requirements for concurrently
entitled recipients who work.

We recommend that SSA develop public information materials (e.g., a brochure or
pamphlet) which address reporting requirements for concurrently entitled recipients
over age 65 who work and for concurrently entitled disabled or blind recipients who
work. The information should explain how earned income affects benefits under both
programs, what earned income limits exist, and reporting responsibilities for each of the
programs. The literature should clearly identify what evidence individuals should
maintain and provide to SSA. It should also stress the importance of timely reporting
and the need for recipients to provide paystubs or other necessary evidence to SSA.

                          ERRORS CAUSED BY FOs
Of the $246.71 million in errors in FY 1996, $63.17 million, or about 26 percent, were
attributed to FO errors. Those errors represented $31.42 million in overpayments and
$31.75 million in underpayments. The processing errors that occurred in FOs involved
the processing of two types of income--wages and self-employment. Many errors were
a result of human error, such as transposition of numbers, and would not be prevented


                                          Page 15
unless a review process was implemented in FOs. The causes of some errors we
found were already being addressed by other Agency initiatives.

However, there were several FO errors occurring frequently that we believe have not
been addressed. Those errors were related to the termination of wages from
individuals’ records without appropriate evidence, the identification of the proper
amount of wages to apply to individuals, and the appropriate application of self-
employment income. The following five recommendations are aimed at improving
current policies, systems, and CR training to prevent wage and self-employment related
errors.

♦	 Recommendation 8: Revise POMS to Clarify What Is Considered to
   Be Acceptable Evidence for Terminating Wages

When earned income estimates are placed on individuals’ records, they remain as
estimates and are used to calculate monthly benefits until they are verified or SSA is
informed that employment has terminated. When individuals inform CRs that they are
no longer employed, current procedures require CRs to verify that employment has
actually terminated. POMS lists, in order of priority, the various acceptable forms of
evidence that CRs can obtain to terminate wages (i.e., remove) from individuals’
records. The acceptable forms of evidence are: 1) an oral statement from an
employer, 2) a written statement from an employer, or 3) an individual’s signed
allegation of termination of wages. Because large overpayments can occur if income is
incorrectly removed from a record, the individual’s signed allegation is the least
preferred type of evidence to verify that employment has terminated.

Our review of IDA case files found that there is some confusion over whether the
appropriate type of evidence is being used to terminate wages on individuals’ records.
We found several cases where CRs accepted individuals’ oral or signed statements
and terminated wages without attempting to obtain preferred evidence to verify that the
individuals’ employment actually terminated. However, in another case, a quality
reviewer cited the FO with an error because the CR did not terminate wages based on
an individual’s signed statement.

We asked CRs what evidence they most frequently used to terminate wages. We
discovered that many CRs often use an individual’s signed allegation without
attempting to verify with the employer that the individual’s employment had actually
terminated. The signed allegation is considered by most CRs to be acceptable
evidence and, in fact is the most expeditious to use. However, the signed allegation is
the least preferred form of evidence and should only be used as a last resort.

It was apparent from our review that both CRs and OQA quality reviewers have
different interpretations of the adequacy of evidence used to verify that employment
has been terminated. We recommend that the policy be clarified to indicate when


                                          Page 16
signed allegations are acceptable evidence for terminating wages and what
documentation is required to support the use of signed allegations as the sole
evidence. Once clarified, the appropriate modifications should be made to POMS and
quality review procedures.

♦	 Recommendation 9: Revise POMS to Prompt Development of
   Cafeteria Plans

When individuals participate in cafeteria plans, certain wages they receive are not
counted when determining their SSI eligibility or when calculating their monthly benefit.
A cafeteria plan is a written benefit plan offered by an employer where participants
choose “cafeteria style” from a menu of two or more cash or qualified benefits.
Cafeteria plans may include health insurance, life insurance, childcare, and other types
of benefits. According to the Internal Revenue Service, wages used to purchase
cafeteria plans are not part of gross income and are not subject to Social Security
taxes. Therefore, in the SSI program, gross earned income is reduced by the amount
of wages used to purchase the cafeteria plan.

Our review of IDA cases indicated that CRs were frequently not identifying cafeteria
plans and reducing individuals’ wages accordingly. From discussions with CRs, we
discovered that they were either unaware of the need to develop cafeteria plans or
misunderstood the cafeteria plan procedures in POMS. CRs also indicated that it is
often difficult to identify cafeteria plans on employer paystubs because very little
information is provided. They also indicated that individuals frequently do not realize
that they are participating in this type of program or that their participation impacts their
SSI benefit.

In order to identify cafeteria plans, CRs must review the types of deductions on the
paystubs. They also can determine, by mathematical calculation, whether the amount
of Social Security tax being withheld equals the percentage that should be withheld
from the employee’s gross wages. A cafeteria plan may exist If the appropriate amount
is not withheld.

When CRs evaluate wage reports, they refer to the POMS section that generally
defines wages and how they are counted for SSI purposes. However, this POMS
section, 12 as currently written, does not explicitly lead CRs to consider the existence of
a cafeteria plan.




12
     POMS, section SI 00820.100 C.1


                                            Page 17
We recommend that the following language be added to the general wage chapter of the POMS to prompt
CRs to develop cafeteria plans:

       If the correct amount of Social Security taxes has not been deducted from
       gross wages (e.g., the Social Security/Medicare tax shown is less than the
       current tax rate (7.65% for 1998) times the gross wages), determine
       whether a cafeteria plan is involved per SI 00820.102.

♦	 Recommendation 10: Revise the Modernized Supplemental
   Security Income Claims System to Assist CRs in Developing Blind
   and Impairment-Related Work Expenses

As with cafeteria plans, work expenses related to an individual’s blindness or other
impairment can be deducted from the individual’s wages to determine eligibility and
benefit amount. These wage reductions are generally referred to as blind work
expenses (BWE) and impairment-related work expenses (IRWE). Separate rules apply
for BWE and IRWE cases; some deductions that are allowable as BWE are not
allowable under IRWE.

We reviewed numerous IDA cases where BWE and IRWE were not considered in
determining eligibility and benefit amounts. We discussed these cases with CRs and it
became evident that CRs do not encounter these issues on a daily or even monthly
basis. CR experience in the development of these cases varies widely. Some
geographic areas have few such cases, while other areas, such as locations with
schools for the blind, have significant numbers of these cases.

Another problem is that recipients typically do not provide CRs with information about
their expenses, and CRs rarely have enough time to discuss or develop every possible
type of expense with recipients. CRs also told us that they often have very little time
during the claims process to refer to POMS; therefore, it is possible that the
development of these expenses is overlooked. They also stated that it would be helpful
if MSSICS could be modified to provide on-line assistance, particularly for CRs in
offices that have few BWE and IRWE cases.

To assist CRs, we recommend that a Modernized Supplemental Security Income
Claims System (MSSICS) Help Screen be developed to provide assistance to CRs
when completing the Blind and Disabled Work Expenses Screen. The Help Screen
should provide CRs with a listing of the most common blind and impairment-related
work expenses, as well as the related procedural references. Figure 3 shows our
suggested Help Screen format.




                                                Page 18
                                          Figure 3

   MSSICS                   BL IND OR DISABLED WORK EXPENSES                      I NEQ
                                         H ELP
            M SOM: 138-D
            POMS SI 00820.555ff and DI 10520.001ff

   •   TRANSPORTATION TO AND FROM WORK;
   •   NONMEDICAL EQUIPMENT/SERVICES;
   •   ATTENDANT CARE SERVICES;
   •   DRUGS, MEDICAL EQUIPMENT OR SUPPLIES;
   •   PHYSICAL THERAPY AND PROSTHESIS;
   •   TRAINING TO USE WORK EXPENSE ITEM;
   •   STRUCTURAL AND VEHICLE MODIFICATIONS; OR
   •   OTHER WORK-RELATED EQUIPMENT OR SERVICES.

   •   DOG GUIDES, INCLUDING FOOD AND UPKEEP (BWE ONLY) ;
   •   FEES, LICENSES OR DUES (BWE ONLY);
   •   INCOME/SS TAXES (BWE ONLY);
   •   PENSIONS/MANDATORY CONTRIBUTIONS (BWE ONLY); OR
   •   MEALS EATEN DURING WORK HOURS (BWE ONLY).


The Blind or Disabled Work Expenses Screen will also need to be revised to reflect the
addition of this Help Screen. Figure 4 shows our suggested modifications in bold.

                                          Figure 4

   MSSICS                  BL IND OR DISABLED WORK EXPENSES                   I NEQ
                                                                      T RANSFER TO: ____

   DO YOU HAVE ANY SPECIAL EXPENSES RELATED TO YOUR ILLNESS OR INJURY THAT YOU
   PAID WHICH ARE NECESSARY FOR YOU TO WORK (Y/N): ____

   SEE HELP SCREEN FOR EXAMPLES OF ALLOWABLE BWE/IRWE EXPENSES (PRESS F1)



   IS SGA INVOLVED (Y/N): ______



♦	 Recommendation 11: Provide Training to FO Personnel on
   Cafeteria Plans and Blind and Impairment-Related Work Expenses

While basic CR training is intensive, little more than passing reference is given to
cafeteria plans, BWE, and IRWE. It is the general expectation that CRs will obtain
additional on-the-job training for items that are not covered in detail in the basic training
course. We did not find that any additional training on these issues had been provided
to the CRs we interviewed. Failing to develop work-related expenses may be attributed



                                            Page 19
to a general lack of understanding of what cafeteria plans and work expense
deductions are and how they impact benefits.

The IDA cases demonstrated that FOs are having difficulty identifying the existence of
cafeteria plans and blind and impairment related work expenses. Our previous
recommendation suggested changes to POMS and MSICCS to assist CRs in the
development of these issues. However, cafeteria plans, BWE, and IRWE need to be
further addressed in order to provide CRs with the necessary skills to accurately
identify and develop cases where cafeteria plans or work expenses exist.

We recommend that SSA develop training packages for FO personnel, which focuses
specifically on the identification and development of these cases. Additional training on
developing cafeteria plans, BWE, and IRWE and improving interviewing techniques will
enhance the CRs’ knowledge, skills, and ability to calculate accurate payments.

♦	 Recommendation 12: Revise MSSICS to Capture Self-Employment
   Income for the Current Taxable Year

Income from self-employment is estimated and applied to an individual’s record for the
purposes of determining eligibility and for calculating monthly benefits. When
determining the appropriate self-employment estimate to record for an individual, the
anticipated profit from self-employment is divided and applied equally to each month in
the taxable year. Self-employment estimates are ultimately verified by using tax returns
to record the actual profit or loss.

When recipients initially apply for benefits, CRs are required to ask about any self-
employment for the individual or any deemors. The general rule for self-employment is
that any income earned in the taxable year must be applied to all months in the taxable
year. Therefore, self-employment income is counted for 12 months for eligibility and
payment purposes, regardless of how long the individual is engaged in the operation of
the business or when the income is received.

In our review of IDA cases, we found that CRs frequently misapplied this rule. It
appeared that CRs were inquiring only about self-employment activity that was
occurring at the time of filing, even though any income from self-employment for the
entire year needed to be applied. We confirmed that this was occurring when we
interviewed CRs.

We examined MSSICS self-employment screens and related policies and procedures
to determine the root cause of the error. We discovered that the MSSICS Income
Menu Screen does not contain the appropriate question to accurately capture self-
employment income. The screen currently prompts the CR to ask whether the
individual received or expects to receive any self-employment income as of the first
moment of the month of filing or in the next 3 months. The current question misleads


                                          Page 20
CRs to believe that self-employment would not be considered at all if it ended before
the application date.

While MSSICS was primarily designed for experienced CRs, newer CRs are relying on
and using MSSICS as an interviewing tool. Therefore, we recommend that the
MSSICS Income Menu Screen be modified as shown in bold in Figure 5.

                                        Figure 5

MSSICS                             I NCOME MENU                     P AGE 3 OF IMEN
                                                                      T RANSFER TO: ____

 SINCE THE FIRST MOMENT OF 07/01/1998 HAVE YOU RECEIVED OR EXPECT TO RECEIVE

 INCOME IN THE NEXT 3 MONTHS FROM ANY OF THESE SOURCES:


 Y/N


  N     CHILD SUPPORT 

  N     OTHER BUREAU OF INDIAN AFFAIRS INCOME 

  N     SICK PAY RECEIVED (EARNED)

  N     SICK PAY RECEIVED (UNEARNED)

  N     WAGES

[ __    SELF-EMPLOYMENT - Removed]
  N     OTHER INCOME OR SUPPORT NOT PREVIOUSLY MENTIONED

HAVE YOU BEEN OR ARE YOU SELF-EMPLOYED IN THE CURRENT TAXABLE YEAR (Y/N): __




                                          Page 21
                           CONCLUSION

Few “easy fixes” exist which would prevent earned income payment errors because the
majority are caused by individuals failing to report changes in income to SSA.
However, our recommendations suggest some proactive measures that SSA can take
to effectively reduce the number and the financial magnitude of overpayments and
underpayments.

One of these measures includes using readily available OCSE wage data to encourage
individuals to self-report and to initiate benefit changes to prevent large overpayments
and underpayments. Others include educating the public, improving SSA’s payment
processes, and providing additional training to CRs.

We hope that these recommendations will assist management and FO employees in
improving the administration of the SSI program. It is important to recognize that each
recommendation can stand on its own merit and help improve payment accuracy.
However, SSA could realize even greater results in payment accuracy if these
recommendations were implemented together as each recommendation complements
the other.




                                          Page 22
APPENDICES

                                                                                                      Appendix A

                                    PAYMENT ACCURACY TASK FORCE
                                         STEERING COMMITTEE MEMBERS


                          NAME                              COMPONENT   TELEPHONE       MAILSTOP        CC:MAIL
Kelly Croft                                                   DCHR      410-965-8172    4-S-17 OPER       ~S7H
Director, Office of Workforce Analysis
Marilyn O’Connell                                             DCOPP     410-965-6212    760 ALT.         ~S3EA
Associate Commissioner for Program and Benefits Policy
Pamela J. Gardiner                                             OIG      410-965-9700    4-G-1 OPER.       ~S8A
Assistant Inspector General for Audit
Rich Gonzalez                                                  DCS      410-965-6018    3224 WHR         ~S2GB
Associate Commissioner for Systems
Joseph Gribbin                                                DCFAM     410-965-3894    860 ALT.          ~S1A
Associate Commissioner for Quality Assurance and
Performance Assessment
Virginia Baker                                                OLCA      410-965-3281    3202 WHR          ~S5B
Program Administration and Financing
Ernestine Durham                                              DCO       410-965-1882    1228 WHR         ~S2PN6
Division of Operations Management

(Associate Commissioner for Public Service and
                         410-965-5267    4-A-25 OPS
Operations Support)

Vince Sanudo                                                  DCCOM      410-965-0356   4-G-10 WHR
Deputy Associate Commissioner for Planning and Technology
Gloria Tong                                                    OC        410-965-2153   250 ALT.          ~SAPP
Analyst, Office of Strategic Management
                                                                    Appendix B


                 SSI EARNED INCOME ISSUE TEAM

Stephanie Palmer, Team Leader, Office of the Inspector General
Evan Buckingham, Evaluator, Office of the Inspector General
Glenda McKinion, Operations Supervisor, Meridian, Mississippi
Yvonne Pringle, Claims Representative, Middle River, Maryland
Barbara Snyder, Policy Analyst, Office of Program Benefits Policy
Valerie Wood, Management Assistant, Office of Workforce Analysis
